CERTIFICATE OF COMPLIANCE
No. 19-1269
TCL COMMUNICATION TECHNOLOGY HOLDINGS LIMITED, ET AL.,
v.

Petitioners,

TELEFONAKTIEBOLAGET LM ERICSSON, ET AL.,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Amicus
Curiae Brief of Fair Standards Alliance in support of Petitioners in the
above captioned case contains 4,685 words, excluding the parts of the Brief
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 5, 2020.

Ruthanne M. Deutsch

